             Office Of Inspector General




December 18, 2003

WILLIAM P. GALLIGAN
ACTING VICE PRESIDENT, DELIVERY AND RETAIL

SUBJECT: Management Advisory – Self Service Platform
         (Report Number DA-MA-04-001)

This report presents the results of our review of the Self Service Platform (Project
Number 03BG066DA000). The report responds to a request from the Board of
Governors to review the functional capabilities of the Self Service Platform. The Self
Service Platform was designed to offer customers a broader range of Postal Service
products, services, and information through a state of the art smart vending platform
with convenient and reliable access 24 hours a day, 7 days a week.

                                                    Background
Development of the Self Service Platform began in 1999. The Postal Service
completed the proof of concept phase in December 1999 with the deployment of the
Self Service Platform prototype, the Automated Postal Center.1 The prototype was
deployed for market testing at 30 locations in Orlando, Florida. Over a 4-month period,
the prototypes were evaluated in both Postal Service and non-Postal Service locations.
The results of this market test validated customer acceptance and usage.

The Board of Governors authorized funding of $95.4 million for the design,
development, production, and deployment of the Self Service Platform. This amount
includes the purchase of 2,506 full service Self Service Platforms, 2,500 for Postal
Service sites and six for training. The funding also includes the field infrastructure
necessary to service, maintain, and remotely monitor transaction data. It also provides
an automated data interface for accounting and other data requirements.




1
  The Automated Postal Center was developed in 1999 to develop deployment criteria and validate the field support
infrastructure required for national deployment of the Self Service Platform. The purpose was to validate machine
functionality in light of retail’s objectives, establish site selection criteria for deployment, develop support infrastructure
needed to ensure a smooth launch, and document the benefits and validate the sales potential through market
testing.



    1735 N Lynn St
    Arlington, VA 22209-2020
    (703) 248-2100
    Fax: (703) 248-2256
Self Service Platform                                                          DA-MA-04-001



The Decision Analysis Report states the Self Service Platform will provide Postal
Service customers with automated access to a full line of products and services in a
40-inch wide by 38-inch deep kiosk. It will also provide convenient access to many
premium delivery services such as Express and Priority Mail. In addition it will also
provide weighing and rating capability for letters, flats, and packages up to 70 pounds,
with convenient, reliable access 24 hours a day, 7 days a week.

The Postal Service intends to incorporate the Self Service Platform into their information
technology infrastructure. Communication connectivity for the Self Service Platform will
interface with the existing telecommunications network either directly or through a
dial-up connection. Presently Automated Postal Center pilot sites transmit daily,
selected transaction data via the Vending Activity Reporting System server, which is
used to automatically prepare a daily financial report. The report is then transmitted to
the Standard Accounting for Retail-Retail Accounting system. At the time of our review,
the Self Service Platform infrastructure was not available for observation or validation
testing.

The Transformation Plan states, “In today’s economy, creating customer value means
both improving quality and affordability of products and services and providing the ability
to access and use these products and services at times and places that are most
convenient to the customer.” It further states, “retail and products and services are the
main areas of growth in the Postal Service.”

Based on the approved Decision Analysis Report, First Article testing was supposed to
begin in October of 2003. Our review revealed the Self Service Platform deployment
has been delayed until April 2004. The First Article Test will be conducted in
January 2004. The Postal Service delayed the First Article Test and deployment due
to delays in negotiating contract award.




                                 Automated Postal Center




                                             2
Self Service Platform                                                           DA-MA-04-001



                        Objectives, Scope, and Methodology
The objective of this audit was to evaluate the functional capabilities of the Self Service
Platform. Survey work was conducted at Postal Service Headquarters and Central
Florida pilot sites. The scope of this review included interviews, market test results,
data review, and visits to 11 Central Florida pilot sites.

We conducted interviews with appropriate Postal Service Customer Service and Retail
personnel concerning both the prototype and the deployed version of the Self Service
Platform. We reviewed applicable policies and procedures and other pertinent
information deemed necessary to determine if the Self Service Platform creates a new,
low-cost alternative and moves simple transactions away from the post office counter.

This review was conducted from May through December 2003 in accordance with the
President’s Council on Integrity and Efficiency, Quality Standards for Inspections. We
discussed our conclusions and observations with appropriate management officials and
included their comments, where appropriate.

                                Prior Audit Coverage
We did not identify any prior audits or reviews related to the objective of this review.

                                         Results
We reviewed the existing prototype Automated Postal Center, and determined it met
Retail’s four objectives to provide customers with convenient access, reduce
customer-waiting time in line, reduce the cost of selling Postal Service products,
and provide easier customer access to premium products. Feedback from the market
testing performed by three different contractors provided positive responses from Postal
Service customers. Our site visits also included favorable responses from both Postal
Service customers and employees.

Even though Retail met their four objectives, we identified three areas of concern.
These areas include lobby mailbox collection, identification of Express Mail acceptance
times, and ability to provide universal service regarding language options.

Overflowing Collection Boxes

During our review of 11 field sites in Orlando, Florida, we observed one prototype
collection box that was overflowing because prototype Automated Postal Center
collection boxes were not empted during high volume times. Consequently, Automated
Postal Center customers left their letters, flats, or parcels unsecured in post office lobby
areas, which increased the risk of theft or damage.




                                             3
Self Service Platform                                                        DA-MA-04-001



The Postal Operations Manual, Issue 9, Section 313.1, dated July 2002 states collection
services must function efficiently. Section 313.1d states offices need to review
operations continually to make modifications as justified by changing conditions.

These procedures do not incorporate specific operating instructions concerning the new
Automated Postal Center collection boxes in post office lobbies.

Recommendation

We recommend the acting vice president, Delivery and Retail:

    1. Develop specific operating instructions concerning the new Self Service Platform
       collection boxes in post office lobbies that are in accordance with collection
       policy.

Management’s Comments

Management agreed with the recommendation and will include specific operating
instructions in the Automated Postal Center guidelines and procedures for post office
personnel to monitor collection box volumes to avoid overflow conditions. Final
language will be completed by April 2004.

Management’s comments, in their entirety, are included in the appendix of this report.

Evaluation of Management’s Comments

Management’s actions taken or planned are responsive and should correct the issues
identified in the report.

Express Mail Acceptance Times

Our observations of the Automated Postal Centers revealed there is no capability to
document acceptance times of Express Mail. Acceptance times are necessary to
determine if refunds are appropriate. The Domestic Mail Manual, Issue 58, D500.1.6,
dated August 10, 2003, states an Express Mail refund request must be made within
90 days after the date of mailing as shown in the “Date In” box on Express Mail label.
In addition, Handbook PO 610, Signature Capture and Electronic Record Management:
Manager’s Guide to Standard Operating Procedures, Exhibit 2-6b, states the
acceptance time starts when the mailpiece is scanned.

When purchased at an Automated Postal Center, the Express Mail purchase receipt
shows the purchase time, not the acceptance time. The Automated Postal Center
customer is not given documentation of the scanned acceptance time. As a result, the
Postal Service may experience dissatisfied customers and issue inappropriate refunds




                                           4
Self Service Platform                                                         DA-MA-04-001



because the current design of the Automated Postal Center does not identify the time of
mailpiece acceptance or guaranteed time of delivery.

Recommendations

We recommend the acting vice president, Delivery and Retail:

    2. Reiterate standard policy to retail associates regarding proof required for the new
       Self Service Platform Express Mail refunds.

    3. Develop a sign that explains actual acceptance time.

Management’s Comments

Management agreed that cutoff time for Express Mail acceptance must be clearly
stated. Three procedures will be employed:

•   Retail Associates will follow the Express Mail refund process for Automated Postal
    Center as outlined in Handbook F1, Post Office Accounting Procedures,
    November 1996 and updated with Postal Bulletins.

•   Express Mail cutoff times are part of Automated Postal Center functionality.

•   Automated Postal Center will display cutoff acceptance times.

Evaluation of Management’s Comments

Management’s actions taken or planned are responsive to recommendations 2 and
3 and should correct the issues identified in the report.

Universal Service

The review revealed the prototype Automated Postal Center did not provide
multi-lingual service to a diverse population and did not address the special needs
of some communities. The Diversity Development Policy Memo, United States Postal
Service Policy on Diversity, dated August 27, 1998, states in order for the Postal
Service to meet the needs of our diverse customers, they will eliminate barriers and
create products and services relevant to our diverse communities with a goal of
increasing customer satisfaction, ease of use, and revenue.

The Automated Postal Center offered English as the sole language in which to conduct
transactions and provide Postal Service information. Consequently, Delivery and Retail
may not meet their stated strategy of optimizing their retail network. Additionally, the
Automated Postal Center’s potential revenue may not be realized.




                                            5
Self Service Platform                                                      DA-MA-04-001



Recommendation

We recommend the acting vice president, Delivery and Retail:

    4. Evaluate whether alternative language options should be added to ensure the
       needs of our diverse customers are met.

Management’s Comments

Management agreed with the recommendation and stated software is under
development to expand multi-language capability though no timeframe has been
established.

Evaluation of Management’s Comments

Management’s action taken or planned are responsive and should correct the issues
identified in the report.

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Tracy A. LaPoint, director,
Engineering, at (703) 248-2100 or me at (703) 248-2300.


/s/ Ronald D. Merryman

Ronald D. Merryman
Deputy Assistant Inspector General
 for Technology, Marketing, and Oversight

Attachment

cc: Mary Anne Gibbons
    John A. Rapp
    Frederick J. Hintenach
    Susan M. Duchek




                                            6
Self Service Platform                                     DA-MA-04-001



                        APPENDIX. MANAGEMENT’S COMMENTS




                                       7
Self Service Platform       DA-MA-04-001




                        8
